No.

IN THE SUPREME COURT OF THE UNITED STATES

Janice Sue Taylor, Petitioner
Vs.
United States Respondent(s)

PROOF OF SERVICE
I, Janice Sue Taylor, do swear or declare that on this date, November.
24.2020. as required by Supreme Court Rule 291 have served the enclosed MOTION
FOR LEAVE TO PROCEED INFORMA PA UPERIS and PETITION FOR A WRIT
OF CERTIORARI on each party to the above proceeding or that party’s counsel, and
on every other person required to be served.
The names and addresses of those served are as follows^
Senior Judge Nancy B. Firestone,ETAL
Judge Lourie
Judge O’Malley
Judge Chen
717 Madison Pl. N.W.
Washington D.C. 20044

leclare ui

Janet A. Bradley, ETAL
Joan I. Oppenheimer
Richard E. Zuckerman
P.O. Box 502
717 Madison PI. N.W.
Washington D.C 20044

0

penaltwof pprjury that the foregoing is true and correct.

fXy.

^Jdpiee Sue Taylor
Executed on November 24.2020

Page 12 of 12

